HHS/OIG-Audit--"Follow-up Audit of the Health Care Financing Administration's Use of Bid Proposal Audits of Peer Review Organizations, (A-03-93-03001)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Follow-up Audit of the Health Care Financing Administration's Use of Bid Proposal Audits of Peer Review Organizations," (A-03-93-03001)
October 24, 1994
Complete
Text of Report is available in PDF format (1.29 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This follow-up audit report points out that peer review organizations (PRO), as reported in our previous audit, continue
to include unsupported costs in their bid proposals, and at a higher rate than previously reported. We determined that
of the $770 million of costs proposed by 49 PROs, $266 million, or about 35 percent, was not supported by the necessary
documentation. We also determined that some PROs continue to have deficiencies in their internal control systems. As a
result of these continuing problems, we developed a "Proposal Guidance Book" which clarifies in specific detail
the documentation needed to support proposed costs. We are recommending that the Health Care Financing Administration incorporate
the use of the Proposal Guidance Book in the request for proposal process, require PROs to complete it, attach the required
documentation, and submit it as part of their bid proposal.